                                                     National Railroad Passenger Corporation
                                                     Office of Inspector General
                                                     10 G Street N.E.
                                                     Washington, DC 20002




                              Credit Card Machine Recovered
                                       July 13, 2011
                                     Case #DC-11-177

A conductor, who was terminated for violating Amtrak policy, retained a credit card machine
that contained sensitive customer information. The machine, valued at $675, was recovered by
OI.
